No. 19-933

In the Supreme Court of the United States
MONEX DEPOSIT COMPANY, ET AL.,

Petitioners,
v.
COMMODITY FUTURES TRADING COMMISSION,

Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Mountain
States Legal Foundation as Amicus Curiae in Support of Petitioner contains 3,081
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 19, 2020.
/s/ Ronald W. Opsahl
Ronald W. Opsahl
Counsel of Record
David C. McDonald
Mountain States Legal Fdtn.
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
ropsahl@mslegal.org
dmcdonald@mslegal.org
February 19, 2020

Attorneys for Amicus Curiae

